CERTIFICATE OF SERVICE
I am counsel of record for Blaine Milam, appointed to represent him under the 18
U.S.C. ยง 3599, and I am a member of the Unites States Supreme Court bar (#304861).
On July 12, 2019, I shipped through Fed Ex, a commercial carrier, the following
documents along with a cover letter:
-

a copy of Reply in Support of Petition of Writ of Certiorari

These documents were addressed to:
Tomee Heining
Office of the Attorney General of Texas
Postconviction Litigation Division
300 W. 15th St.
Austin, TX 78701
Thus, I accomplished service as required by Rule 29 of the Supreme Court.
DATED: August 20, 2021

Respectfully submitted,
/s/ Jeremy Schepers
Jeremy Schepers (#304861)
Supervisor, Capital Habeas Unit
Office of the Federal Public Defender
Northern District of Texas
525 S. Griffin St., Suite 629
Dallas, TX 75202
Phone: (214) 767-2746
Fax: (214) 767-2886
Email: jeremy_schepers@fd.org
Counsel of record for
Petitioner Blaine Milam

